NO.
SUPREME COURT OF THE UNITED STATES

MATTHEW J. O’NEAL

PETITIONER,

vs.

UNITED STATES OF AMERICA,

RESPONDENT.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Comes the petitioner, Matthew J. O’Neal, by counsel, and respectfully moves
the Court for leave to file the accompanying Petition for a Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit without prepayment of fees or
costs and to proceed in forma pauperis pursuant to Supreme Court Rule 39.
In support of this motion, petitioner states that he was found to be indigent by
the United States District Court for the Western District of Kentucky. Counsel from
the Office of the Federal Community Defender for the Western District of Kentucky
was appointed, pursuant to 18 U.S.C. § 3006(a), to represent petitioner in the district
court and on appeal to the United States Court of Appeals for the Sixth Circuit.

Wherefore, the petitioner, Matthew J. O’Neal, by counsel, respectfully
moves the Court to grant him leave to proceed in forma pauperis.

Frank W
Counsel ofRecord
Office of the Federal Defender
200 Theatre Building
629 Fourth Street
Louisville, Kentucky 40202
(502)584-0525
Frank Heft@fd.org
Counsel for Petitioner

